OFFICE OF INSPECTOR GENERAL

AUDIT OF
USAID/AFGHANISTAN’S
CONSTRUCTION OF HEALTH
AND EDUCATION FACILITIES
PROGRAM
AUDIT REPORT NO. F-306-11-002-P
MARCH 27, 2011




KABUL, AFGHANISTAN
Office ofInspector General


March 27, 2011

MEMORANDUM

TO:               USAID/Afghanistan Mission Director, Earl W. Gast

FROM:              OIG/Afghanistan Director, Tim Cox /s/

SUBJECT:          Audit of USAID/Afghanistan's Construction of Health and Education Facilities
                  Program (Report Number F-306-11-002-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments to the draft report and included the comments (without attachments)
in appendix II.

This report contains 15 recommendations to assist USAID/Afghanistan to improve its oversight
of the Construction of Health and Education Facilities Program. Based on the information
provided by the mission in response to the draft report, we consider that final actions have been
taken on recommendations 5, 6, 7, 8, 11, and 12 upon issuance of this report. In regard to
recommendations 1, 2, 3,4,9,10,13,14, and 15, management decisions have been reached
and determinations of final action will be made by the Audit Performance and Compliance
Division upon completion of the planned corrective actions. Based on mission comments the
mission concurs with the unallowability of $258,982 for the construction of religious structures
and intends to collect the unallowable costs from the implementer.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




USAIDIOIG Afghanistan
East Compound
U.S. Embassy
Great Masood Road
Kabul. Afghanistan
CONTENTS
Summary of Results ..................................................................................................... 1

Audit Findings ............................................................................................................... 4

     Construction Fell Significantly Behind Schedule ........................................................ 4

     Cost and Security Issues Reduced the Scope of New Construction .......................... 7

     Mission Approved Building of Religious Structures .................................................... 8

     Process Needed for Release of Construction Designs .............................................. 9

     Materials Testing Did Not Comply With Guidance ..................................................... 9

     Sustainability of Facilities Is Questionable ............................................................... 11

     Mission Did Not Carry Out Required Environmental Assessments .......................... 12

     Implementer Had No Approved Marking Plan.......................................................... 13

     A Subcontractor Incurred Unallowable Security Costs............................................. 14

     Repairs to Correct Defects Under a Previous Program Reduced the Funding
     Available for New Structures ................................................................................... 14

Evaluation of Management Comments...................................................................... 17

Appendix I – Scope and Methodology ....................................................................... 19

Appendix II – Management Comments ...................................................................... 21
SUMMARY OF RESULTS
To help respond to unmet health and education needs in Afghanistan, USAID/Afghanistan
entered into a $57 million cooperative agreement with the International Organization for
Migration (IOM) in January 2008, effective through January 2011, to implement the Construction
of Health and Education Facilities Program. The agreement was subsequently extended
through June 2012. According to the mission, as of September 30, 2010, USAID/Afghanistan
had obligated $57 million and disbursed $10 million for program activities.

The objective of the audit was to determine whether USAID/Afghanistan’s program was
achieving its main goals of strengthening the Government of Afghanistan’s ability to provide
health services to its citizens and train competent teachers by constructing provincial hospitals,
midwife training centers, and provincial teacher training colleges.

While the mission has realized some successes—for example, in strengthening the capacity of
local construction companies and adhering to the international building code—the program was
not on schedule to achieve its main goals. The audit disclosed the following issues:

   Construction fell significantly behind schedule. The program was approximately 18 months
    behind schedule and was making slow progress toward achieving its goals (page 4).

   Cost and security issues reduced the scope of new construction. Achieving the original
    goals of the agreement was hindered by funding limitations that significantly reduced the
    number of structures to be constructed (page 7).

   The mission approved building religious structures. The mission approved the construction
    of male prayer buildings and female prayer rooms at four construction sites, violating a
    prohibition contained in Title 22 of the Code of Federal Regulations (CFR), Section 205(d).
    The estimated cost of these structures was $258,982 (page 8).

   Process needed for release of construction designs. The mission has not provided
    guidance to IOM on providing completed designs for buildings that will not be constructed to
    the relevant ministry. The mission has not yet provided the completed designs for two
    hospitals and four provincial teacher training centers to the Ministries of Education and
    Public Health (page 9).

   Materials testing did not comply with guidance. IOM did not consistently comply with its
    quality control manual in testing construction materials (page 9).

   Sustainability of facilities is questionable. The ability of the Ministries of Education and
    Public Health to maintain the completed structures is questionable because of competing
    priorities for ministry funds, which could further hinder achievement of the program’s main
    goals (page 11).

   The mission did not carry out required environmental assessments. USAID/Afghanistan did
    not comply with USAID’s environmental procedures, and did not complete an environmental
    assessment as required (page 12).




                                                                                            1
   The implementer had no approved marking plan. IOM did not submit a branding and
    marking plan as required by the agreement (page 13).

   A subcontractor incurred unallowable security costs. A construction subcontractor was
    paying off-duty Afghan Nation Police for security services without approval from the mission.
    However, the amount involved was small: approximately $9,200 (page 14).

   Repairs to earlier construction program reduce funds available for the current program.
    Approximately $316,000 that could have been spent on new structures was used to
    refurbish a clinic and reconstruct a school that had suffered damage as a result of defective
    designs and construction under a prior USAID/Afghanistan program (page 14).

To address these issues, our report includes 15 recommendations for USAID/Afghanistan:

1. Obtain a revised implementation plan from IOM identifying revised completion dates for all
   structures, recovery actions to increase the speed of construction, potential barriers to timely
   completion of construction, and actions that could be taken to mitigate delays (page 7).

2. Extend the agreement with IOM to ensure that the warranty period for all completed
   structures falls within the agreement period (page 7).

3. Review the eligibility of the cost of the prayer buildings and prayer rooms included in the
   provincial teacher training centers and recover any costs found to be unallowable (page 9).

4. Include in technical representatives’ designation letters a reminder of USAID’s policy on
   funding religious activities (page 9).

5. Develop a process for releasing completed designs (page 9).

6. Obtain evidence that IOM has standardized its quality control procedures at all construction
   sites (page 11).

7. Obtain evidence that IOM has updated its quality control manual to include all tests
   performed and acceptance criteria used for quality control (page 11).

8. Develop and implement a process whereby the agreement                       officer’s   technical
   representatives verify and review quality control tests (page 11).

9. After preparing an analysis of the Government of Afghanistan’s ability to fund maintenance
   for the structures turned over under the program, (1) make a determination of the need for a
   separate operation and maintenance program and (2) revise as appropriate the 611(e)
   certification previously prepared for the Construction of Health and Education Facilities
   Program (page 12).

10. Complete the required environmental assessments required by 22 CFR 216 (page 13).

11. Provide adequate supervision to reasonably ensure compliance with USAID’s environmental
    procedures (page 13).

12. Direct IOM to submit a formal marking plan as required by the agreement (page 13).



                                                                                                  2
13. Determine the adequacy of IOM’s marketing plan (page 13).

14. Identify and recover the unallowable costs billed to the mission for the use of off-duty Afghan
    National Police officers (page 14).

15. After identifying all clinics built under a previous USAID construction program that may have
    a design flaw that creates a fire hazard, notify the Ministry of Public Health and provide a
    remedy for the design flaw (page 16).

The audit scope and methodology are described in Appendix I (page 19)

The Office of Inspector General evaluated the mission’s response to the draft report and
determined that final action has been achieved on 6 of the 15 recommendations
(Recommendations 5, 6, 7, 8, 11, and 12). A management decision has been reached on the
other 9 recommendations. The mission’s written comments on the draft report are included in
their entirety, without attachments, as Appendix II to this report (page 21).




                                                                                                 3
AUDIT FINDINGS
Construction Fell Significantly
Behind Schedule
According to the original cooperative agreement, IOM was to complete all construction between
June and December 2009.

Because of the circumstances described below, the mission was not able to complete any of the
structures in accordance with the original delivery dates. Furthermore, the mission will not be
able to deliver four of the structures in accordance with the revised timeline, and a fifth
structure—a 100-bed hospital—may also miss its anticipated delivery date. Table 1 shows the
status of construction as a percentage of completion, as well as the estimated completion dates.

                  Table 1. Status of Facility Construction and Delivery Dates
                                     as of August 31, 2010
                                    Percent       Original         Current
                                                                                     Estimated
                                   Complete      Agreement        Agreement
Facility                                                                            Completion
                                     as of        Delivery       Delivery Date
                                                                                    Date by IOM
                                   8/31/2010        Date       (Modification 10)
Health Facilities
  100-bed hospital-Paktya              7         12/31/2009        6/14/2012         2/23/2012
  20-bed hospital-Paktika              6         6/30/2009         9/22/2011         6/11/2011
  Midwife training center-
                                       25        10/31/2009        10/29/2010        12/15/2010
  Bamyan
  Midwife training center-
                                       30        10/31/2009        10/30/2010        11/27/2010
  Badakhshan
  Midwife training center- Khost       83        10/31/2009        8/29/10/10        11/15/2010
Provincial Teacher Training
College
  Wardak                               6         12/31/2009        9/16/2011         6/15/2011
  Faryab                               7         11/30/2009        9/16/2011         6/15/2011
  Parwan                               7         12/31/2009        9/16/2011         10/20/2011
  Nangahar                             7         12/31/2009        6/19/2011          8/8/2011

These construction delays resulted from (1) delays in completing designs, (2) security threats at
certain project sites, (3) limited availability of skilled labor, (4) limited availability of quality
materials, (5) land title issues, (6) weather, and (7) work interruptions caused by local elections
and holidays. These issues are detailed below:

   Design delays. When the agreement was originally awarded, IOM was expected to use
    existing designs for the health and education structures. After the award, the mission
    decided that all structures had to be designed in accordance with international building code
    standards for seismic zones. The existing designs could not be modified to meet the stricter
    international building code, and as a result, new designs had to be developed.

    Changes in construction locations also contributed to design delays. For example, the
    location for the 20-bed hospital for Paktika was switched twice, delaying delivery of the final
    design.



                                                                                                   4
    Completion of designs was also delayed by a mission decision to require the use of a type
    of concrete block that was not available in Afghanistan. IOM began designing the midwife
    training centers using 8-inch concrete blocks, which were commercially available in
    Afghanistan. In February 2009, after the design process began, the mission directed IOM to
    revise the design to use 12-inch concrete blocks because the mission believed that these
    would provide for a stronger structure. IOM began the redesign process and at the same
    time investigated the availability of 12-inch concrete blocks in Afghanistan. Ultimately, IOM
    was unable to find a source for the 12-inch block in Afghanistan, and the mission directed
    IOM to revert to the 8-inch blocks in May 2009, wasting approximately 3 months in the
    design process.

    Finally, constant changes in the scope of work delayed completion of the designs. For
    example, the original agreement called for two types of provincial teacher training colleges—
    one for 200 students and one for 300 students. However, after the cooperative agreement
    was signed, the Ministry of Education required designs with classroom capacity for 600
    students and dormitory capacity for 200 students. This change practically doubled the size
    of the buildings and added time to the design process. As well, the design of a 50-bed
    hospital, which was ultimately removed from the agreement, was changed after award of the
    agreement from a traditional provincial hospital to a women’s hospital.

    Collectively, these design issues delayed the start of construction by approximately 1 year.
    The mission did not approve the first designs until February 2010, with the last designs
    approved in May 2010.

   Security threats. Security for transporting materials to work sites has been problematic for
    certain locations. The volatile security situation throughout the south and southeast regions
    of the country stopped all deliveries to work sites and delayed preconstruction activity from
    July through September 2008. For example, work on a 20-bed hospital in Paktika was
    suspended because of security concerns and lack of road access. Furthermore, the
    discovery of unexploded Soviet-era ordnance at the construction site of the Wardak
    provincial teacher training college delayed construction by approximately 1 month.
    According to IOM, the general security situation has continued to deteriorate across the
    country, requiring sites to stop work for varying periods.




                            Unexploded ordnance discovered at the
                            Wardak construction site delayed construction
                            by a month. (Photo courtesy of IOM)



                                                                                               5
   Unavailability of skilled labor. According to IOM, it has experienced delays because of a
    lack of skilled labor to fill both construction and office positions. Regarding skilled
    construction labor, IOM stated that local subcontractors were unfamiliar with building to
    international building code requirements. For example, two construction companies
    resigned soon after receiving IOM subcontracts because of their inability to comply with
    IOM’s quality control requirements. Their resignations resulted in the subcontracts being
    tendered again. Furthermore, IOM contended that it had had problems recruiting qualified
    engineers to serve in high-threat areas such as Khost Province.

   Unavailability of quality materials. Obtaining quality materials also delayed construction.
    For example, after the foundation was poured for the midwife training center in Badakhshan
    Province, it was discovered that the steel reinforcing rods used were not of high enough
    quality. A stop-work order was issued so that a solution could be developed; subsequently,
    a second foundation was poured over the existing one. In addition, construction of the
    provincial teacher training college in Parwan Province lagged because of the quality of
    concrete delivered by a local concrete plant: even though the vendor certified the concrete
    mix, the samples sent to the lab ultimately failed the required compression strength tests.
    As a result, this project was delayed 1 month. Finally, one subcontractor commented that it
    had to slow its work schedule when it had to import concrete block from Kabul because
    none was available locally.

   Delayed deeds, contested land titles. IOM also experienced delays in getting adequate land
    titles, and sometimes even when it thought it had the proper title, work could not proceed
    because villagers contested ownership of the land. For example, geotechnical surveys—a
    prerequisite to starting construction—were delayed because the provincial departments
    were slow in providing deeds. As another example, after getting a land title for construction
    of the midwife training center in Bamyan Province, when the subcontractor arrived to begin
    construction, local community members contested the title because the Government of
    Afghanistan had not made final payment for the property, delaying construction for over 3
    months. The last land title for the program was obtained in February 2009—over 1 year
    after the program started.

   Unscheduled work interruptions.            Unscheduled work interruptions, such as forced
    evacuations of IOM staff and security threats preceding the 2009 and 2010 elections, also
    affected the program. IOM’s country office staff was evacuated for security reasons for over
    2 months in 2009, contributing to delays in construction. Furthermore, the Afghan
    presidential election process in August 2009 delayed construction activities because of
    terrorist attacks and threats at and around construction sites. Finally, security threats
    associated with the 2010 parliamentary elections affected material deliveries as well as the
    ability of staff to get to construction sites. According to IOM, the annual Ramadan and Eid
    holidays slowed construction as employees were slow to return from holidays.

   Bad weather. As in all construction projects, weather also caused delays.         All of the
    construction sites closed during the winter.

These issues collectively put the program approximately 18 months behind schedule.

Construction delays hampered the delivery of the program’s intended benefits: improved
access to health services and improved teacher training. In addition, the delays experienced by
the program affected the warranty period for one structure. Each structure completed by IOM



                                                                                               6
has a 1-year warranty. The original schedule permitted all of the warranties to expire by the end
of the agreement. However, the 100-bed hospital was not expected to be completed until the
final month of the agreement, and there was no plan to cover the 1-year warranty period for this
structure.

To address the issues discussed above, we make the following recommendations:

   Recommendation 1. We recommend that, after the current construction season,
   USAID/Afghanistan obtain a revised implementation plan from the International
   Organization for Migration identifying revised completion dates for all structures,
   recovery actions to increase the speed of construction, potential barriers to timely
   completion of construction, and actions that could be taken to mitigate delays.

   Recommendation 2. We recommend that USAID/Afghanistan extend its agreement
   with the International Organization for Migration to ensure that the warranty period for all
   completed structures falls within the agreement period.

Cost and Security Issues Reduced
the Scope of New Construction
According to IOM’s original agreement, it was to design and construct five hospitals, three
midwife training centers, and ten provincial teacher training colleges.

Modifications to the agreement reduced the scope of work to design and construct two
hospitals, three midwife training centers, and five provincial teacher training colleges. (For one
of the colleges, IOM will construct dormitories only, and for a second college, IOM will construct
only a water well and a boundary wall.) The agreement still requires the design of two hospitals
and four provincial teacher training colleges.

The scope of the agreement was reduced because of cost and security issues.

Both the decision to make all structures compliant with international building codes for seismic
areas and an increase in the size of the provincial teacher training colleges would have
increased the cost of the program by an estimated $49 million if all the original structures were
constructed. When the agreement was originally signed, the assumption was that IOM would
use existing designs for construction. However, once the mission imposed the new international
building code requirement after the award of the agreement, IOM had to modify the designs to
be compliant. After several attempts to modify the hospital designs, it was determined by the
mission and IOM that IOM would have to start over with new designs. A joint decision was
ultimately made to contract with an architectural design firm that specialized in health facilities to
do the work at a cost of approximately $2 million that had not been budgeted for. Construction
costs increased as well. In addition, the Ministry of Education requested a significant change to
the design of the provincial teacher training colleges that increased costs. The original
agreement called for either a 200- or a 300-student facility. The ministry subsequently
requested that all provincial teacher training colleges be designed and constructed for a
capacity of 600 students, significantly increasing costs.

In addition, some structures were removed from the agreement because the proposed sites
were in high-threat zones. For example, the proposed provincial teacher training colleges in
Zabul, Khost, and Paktika Provinces were in locations that were not secure, and transport of



                                                                                                    7
supplies on roads in these provinces would be problematic.

As a result, the impact of the program in terms of increased access to medical services through
construction of hospitals and midwife training centers and through training of new teachers at
the newly constructed colleges will be reduced. As of completion of fieldwork, the mission was
contemplating funding additional structures under the agreement; however, no decision had
been finalized. Since the security issues are beyond the mission’s control and since the mission
has implemented new procedures for making structures compliant with international building
codes as part of future programs, we are not making any recommendations at this time.

Mission Approved Building of
Religious Structures
Title 22 of the Code of Federal Regulations, Section 205(d), “Participation by Religious
Organizations in USAID Programs,” states that USAID funds may not be used for the
acquisition, construction, or rehabilitation of structures to the extent that those structures are
used for inherent religious activities.

However, at the request of the Ministry of Education, USAID funded male prayer buildings and
female prayer rooms at the provincial teacher training colleges. We estimate the cost of these
religious structures at $258,982 as shown in Tables 2 and 3.

                         Table 2. Cost of Prayer Buildings for Men at
                            Provincial Teacher Training Colleges

                    Construction cost at Wardak                 $42,626
                    Construction cost at Faryab                  44,601
                    Construction cost at Parwan                  45,429
                    Construction cost at Nangahar                50,626
                    Design cost for five sites                    2,500
                    Total                                      $185,782

                        Table 3. Cost of Prayer Rooms for Women at
                           Provincial Teacher Training Colleges
                                                                 $18,000
                    Construction cost at Wardak
                    Construction cost at Faryab                   18,000
                    Construction cost at Parwan                   18,000
                    Construction cost at Nangahar                 18,000
                    Design cost for five sites                     1,200
                    Total                                        $73,200

IOM’s technical proposal clearly indicated that these religious structures would be incorporated
into the designs of the provincial teacher training colleges, but USAID staff failed to recognize
these structures as being ineligible for USAID funding. Furthermore, discussions with mission
staff and review of program documentation indicated a lack of knowledge concerning this issue.




                                                                                                8
Funding for the religious structures violated the prohibition in 22 CFR 205(d) and diverted
resources that could have been used for other, allowable purposes under the program.
Therefore, we make the following recommendations.

    Recommendation 3. We recommend that USAID/Afghanistan review the eligibility of
    the cost of the prayer buildings and prayer rooms included in the provincial teacher
    training centers and recover any costs found to be unallowable.

    Recommendation 4. We recommend that USAID/Afghanistan include in technical
    representatives’ designation letters a reminder of USAID’s policy on funding religious
    activities.

Process Needed for Release of
Construction Designs
According to the IOM technical proposal it submitted for the program, IOM will provide
construction drawings to the relevant ministry. However, the mission has not provided guidance
to IOM on providing completed designs for buildings that will not be constructed to the relevant
ministry.

The mission has not yet provided the completed designs for two hospitals and four provincial
teacher training centers to the Ministries of Education and Public Health. The completed
designs are site specific and include drawings, specifications, design analysis, design
calculations, and bills of quantities with adherence to the international building codes and
compliance with seismic requirements. Releasing the designs would allow the ministries to
solicit other donors for these projects.

The mission did not release the completed designs to the ministries because there was no
process to do so. The mission’s Office of Infrastructure Engineering and Energy expressed
concerns over liability issues associated with releasing the designs; however, the mission’s
Regional Legal Advisor indicated that a liability release statement could be prepared to address
these concerns.

The designs for the structures not being built cost the mission approximately $544,000. If the
designs are not released, these costs will be wasted. Therefore, we make the following
recommendation.

    Recommendation 5. We recommend that USAID/Afghanistan develop a process for
    releasing completed designs.

Materials Testing Did Not Comply
With Guidance
The audit disclosed several instances of noncompliance with IOM’s quality control manual,
which is incorporated into the cooperative agreement and approved by the mission:

   The manual required specific tests of construction materials to be performed at specified
    intervals, but we noted instances where there was no evidence that required tests were
    performed. For example, of 49 required 7-day concrete compression strength tests


                                                                                              9
    reviewed, IOM could only provide evidence that 35 tests were performed. As another
    example, of 49 required concrete slump tests1 reviewed, IOM could only provide evidence
    that 36were performed. Further, of 40 required 28-day concrete compression strength tests
    reviewed, IOM could only provide evidence that 37 tests were performed.

   The manual required that tested materials meet minimum acceptance criteria. However, for
    both 7-day concrete compression strength tests and slump tests, IOM approved materials
    that did not meet the minimum acceptance criteria in the manual. The criteria that IOM used
    to accept the materials may be valid, but the criteria should be reviewed and incorporated
    into the quality control manual.

   The manual required that the IOM reviewer and quality control manager approve lab results
    using a standard submittal form, but the standard form for approving lab results was not
    used for 6 of the 37 28-day compression strength tests reviewed.

   The manual required that a standard form to record test results be maintained and that the
    results be forwarded to the agreement officer’s technical representative (AOTR). However,
    review of records at six construction sites disclosed that only one site used the standard
    form, while the other sites used a variation of the form that was more detailed. With no
    standardized form used to track slump tests, sites created their own form to track results.

Furthermore, the cooperative agreement also required that IOM and the mission’s quality
assurance contractor—International Relief and Development, Inc. (IRD)—approve test results.
However, none of the slump tests reviewed for the Bamyan midwife training center included
evidence that tests were approved as required.




                    Concrete cylinders prepared at the Gardez 100-bed hospital site
                    await compression strength tests. (Photo by OIG, November 2,
                    2010)


1
 A slump test is commonly used to measure the workability of freshly made concrete whereby a conical
mould is filled with concrete, rammed and then inverted and emptied over a flat plate. The slump is the
difference between the height of the mould and the highest point of the concrete.



                                                                                                      10
The AOTR’s files did not contain copies of all tests performed by IOM. Had the mission
requested and received all of the test results, it might have detected the inconsistent
documentation. Inadequate controls for materials tests can lead to incorporation of substandard
material into USAID-funded construction projects, affecting the integrity of the structures.

The mission is aware of these issues and has started to address the following
recommendations.

   Recommendation 6. We recommend that USAID/Afghanistan obtain evidence that the
   International Organization for Migration has standardized its quality control procedures
   at all construction sites.

   Recommendation 7. We recommend that USAID/Afghanistan obtain evidence that the
   International Organization for Migration has updated its quality control manual to include
   all tests performed and acceptance criteria used for quality control.

   Recommendation 8. We recommend that USAID/Afghanistan develop and implement
   a process whereby the agreement officer’s technical representatives verify and review
   quality control tests.

Sustainability of Facilities Is
Questionable

Section 611(e) of the Foreign Assistance Act of 1961, as amended, provides that whenever
certain types of funds are proposed to be used for a capital assistance project exceeding $1
million, the mission director must provide a certification as to the capability of the country to
effectively maintain and utilize the project.

While the mission director provided such a certification, current mission staff members do not
believe that the Government of Afghanistan can afford to maintain the structures that the
mission is financing under the Construction of Health and Education Facilities Program. A post
occupancy evaluation of 608 schools and clinics completed under a previous mission program
(Schools and Clinics Construction and Refurbishment Program) disclosed a lack of
maintenance of the structures turned over to the Ministries of Education and Public Health. IOM
and the mission’s quality assurance contractor questioned the ministries’ ability to fund
maintenance of the new structures being completed under the program. As well, the audit site
visit to Antany Hospital disclosed that basic maintenance tasks such as replacing light bulbs
were not being performed.

According to the mission, while there are budget line items for maintenance of existing
structures within the ministries, the ministries have competing priorities, such as meeting
payroll. Furthermore, the mission commented that the budget for maintaining existing structures
is not sufficient to cover maintenance needs. Mission staff also pointed out that, for road
programs, the mission historically has had separate programs for maintenance of USAID-
funded roads. Finally, according to the ministries, it is the responsibility of the line directors in
the provinces to provide budget requests for maintenance, and this does not always happen.




                                                                                                  11
If the structures are not properly maintained, their useful life could be shortened, and critical
systems such as generators and electrical systems could fail. While the hospitals and provincial
teacher training centers being constructed are covered by a 1-year warranty after being turned
over to the ministries, critical systems must be maintained routinely. While availability of funding
for maintenance is beyond the mission’s control, we make the following recommendation.

    Recommendation 9. We recommend that USAID/Afghanistan, after preparing an
    analysis of the Government of Afghanistan’s ability to fund maintenance for the
    structures turned over under the program, (1) determine the need for a separate
    operation and maintenance program and (2) revise as appropriate the 611 (e)
    certification previously prepared for the Construction of Health and Education Facilities
    Program.

Mission Did Not Carry Out Required
Environmental Assessments
USAID’s environmental procedures are included in Title 22 of the Code of Federal Regulations,
Part 216, “Environmental Procedures.” Section 216.2(d)(1) states that new land development is
part of a class of actions that have been determined generally to have a significant effect on the
environment. Therefore, an environmental assessment or environmental impact statement, as
appropriate, will be required. Under Section 216.2(d)(2), however, if the originator of the project
believes that the project will not have a significant effect on the environment, than an initial
environmental examination will be prepared. If the initial environmental examination determines
that the project would have a significant effect, an environmental assessment or environmental
impact statement will be prepared.

The mission decided no environmental assessment was required because (1) it was financing
only small-scale construction, which the mission defined as construction where the land to be
disturbed measured 10,000 square feet or less and (2) the land had already been disturbed by
previous construction or by war.

The mission’s reasoning was flawed for several reasons. First, 22 CFR 216 does not contain
any exemptions for small-scale construction. Even if such an exemption existed, some of the
construction the mission financed did not meet the mission’s definition of small-scale
construction. For example, the provincial teacher training colleges were initially designed to be
built on lots measuring 150,694 square feet—far beyond the 10,000 square feet that the mission
referred to as small-scale construction. Second, the mission decided not to prepare an
environmental assessment before it knew the location of all the construction sites. Therefore, it
could not have known whether the land had been disturbed. Third, 22 CFR 216 does not
contain an exemption for land “disturbed by war.” Finally, most of the construction sites had not
been disturbed by previous construction.2

This noncompliance with USAID’s environmental procedures apparently occurred because
mission staff did not understand the procedures. During our audit, mission staff received

2
   Another problem arose that was related to USAID/Afghanistan’s noncompliance with USAID’s
environmental procedures. The cooperative agreement required IOM to prepare a scoping statement and
an environmental assessment for all construction sites. After IOM began preparing the scoping
statements, an AOTR told IOM that these would not be required. However, the AOTR lacked authority to
waive deliverables required by the cooperative agreement.



                                                                                                 12
training on environmental procedures in which the small-scale construction exemption was
provided as guidance, even though no such exemption exists in the relevant regulations. We
also noted that the flawed decision to forgo environmental assessments was approved by a
former office director, indicating that higher-level supervision and oversight of the application of
USAID’s environmental procedures are required.

Without proper environmental assessments, USAID/Afghanistan will not be able to ensure that
proper environmental safeguards and mitigation steps are implemented. Environmental
damage could result. Therefore, we make the following recommendations:

   Recommendation 10.         We recommend that USAID/Afghanistan complete the
   environmental assessments required by Title 22 of the Code of Federal Regulations,
   Part 216, “Environmental Procedures.”

   Recommendation 11. We recommend that USAID/Afghanistan provide adequate
   supervision to reasonably ensure compliance with USAID’s environmental procedures.

Implementer Had No Approved
Marking Plan
According to its cooperative agreement, IOM was to propose and submit a plan for
implementing the marking provisions in the agreement within 30 days of the effective date of the
agreement. The agreement also specifies the content of the plan, which is to include the type of
marking proposed and the location of the marking. Furthermore, the agreement specifies how
IOM can request waivers as well as the situations in which a waiver would be granted.

The mission and IOM have discussed the types of marking to be used at construction sites and
potential sites that may require waivers. Specifically, IOM has proposed temporary and
permanent signage for its construction sites, and it has proposed waivers for the Khost midwife
training center, the Paktika 20-bed hospital, and the Wardak provincial teacher training center.
However, there is no approved marking plan in place.

According to IOM, it did not submit a marking plan because it thought the discussions it had with
the AOTR were sufficient.

The program is designed to help the Government of Afghanistan increase access to medical
services and increase competency of teachers through construction of the health and education
facilities. Unless the construction financed by USAID is appropriately marked, beneficiaries may
not be aware of USAID’s role.

Even though IOM was making contact with the mission to develop a marking plan by the close
of audit fieldwork, we make the following recommendations.

   Recommendation 12. We recommend that the mission direct the International
   Organization for Migration to submit a formal marking plan as required by the
   agreement.

   Recommendation 13. We recommend that, on receipt of the International
   Organization for Migration’s plan, the mission determine the adequacy of the plan.



                                                                                                 13
A Subcontractor Incurred
Unallowable Security Costs
Mission practice is to approve in advance any memorandums of understanding between IOM or
its subcontractors and local Afghan officials for the use of off-duty Afghan National Police (ANP)
officers to secure construction sites. The mission informed IOM of this practice after it approved
a memorandum of understanding between IOM and the Governor of Paktya Province to provide
security for a 100-bed hospital construction site.

IOM did not obtain approval for its memorandum of understanding for the use of off-duty ANP
officers at the construction site in Faryab Province as required. According to IOM, there was
confusion as to what was required to obtain approval for using the off-duty police officers.
Subsequently, IOM submitted the memorandum of understanding to the agreement officer for
approval. The agreement officer denied approval of the memorandum and revoked approval for
a prior memorandum of understanding IOM had in Ghanzi Province because the agreements
did not comply with Afghan laws which had changed since the original memorandum of
understanding was approved. Effectively, all security costs incurred for the Faryab construction
site were to be disallowed, and all costs for the Ghanzi construction site were to be disallowed
effective October 22, 2010.

The impact can be measured in terms of violation of local laws and unallowable costs charged
to the mission. While the off-duty police are trained by ANP they are not paid by ANP and
therefore are considered private security contractors. As such, they must be registered with the
Ministry of Interior according to new regulations implemented by the Government of
Afghanistan. In terms of unallowable costs, in Faryab, eight off-duty police were contracted for
$250 per month per person for a monthly cost of $2,000 per month. In addition, a supervisor at
$300 per month was also contracted. Unallowable security costs total $2,300 per month. With
a start date of June 2010, the estimate unallowable costs that could have been billed totaled
$9,200 through the end of September.

    Recommendation 14. We recommend that USAID/Afghanistan identify and recover
    the unallowable costs billed to the mission for the use of off-duty Afghan National Police
    officers.

Repairs to Correct Defects
Under a Previous Program
Reduced the Funding
Available for New Structures
The purpose of the Construction of Health and Education Facilities Program is to increase
access of Afghan citizens to quality basic health services and to increase the quality and
number of teachers at educational facilities. However, because of faulty designs and
construction done under the Schools and Clinics Construction and Refurbishment Program,
approximately $316,000 in funds for the current program were authorized by the agreement
officer to repair or replace two structures that were damaged or destroyed. Details of these
cases follow:

   Qawchin Clinic. Construction of Qawchin Clinic was completed by IOM under the mission’s
    Schools and Clinics Construction and Refurbishment Program in October 2006 at a cost of


                                                                                                 14
    $75,246. On December 15, 2007, the clinic caught fire as result of a faulty design and poor
    construction. In terms of design, the exhaust from the clinic’s stoves should have been
    ventilated through the wall rather than through the roof. Furthermore, the installation of the
    ventilation pipes for the stoves was not done properly as the exhaust pipes were in direct
    contact with the wood roof trusses. According to IOM, it delivered stoves for a total of 12
    structures. Based on interviews with current mission staff and review of mission files, there
    is no evidence that the mission followed up with IOM or the Government of Afghanistan to
    ensure that similar flaws do not exist in the other 11 structures. IOM estimates it would cost
    approximately $200 per structure to remedy the problem.

   Sherzad Girl’s School. Construction of the Sherzad girl’s school was completed in February
    2006 under the mission’s Schools and Clinics Construction and Refurbishment Program at a
    cost of $100,000. In April 2009, the school was damaged by an earthquake and determined
    to be uninhabitable. The school was designed and built using unreinforced masonry walls,
    which do not withstand earthquakes. Under the current program, the mission replaced the
    existing school with a seismic-resistant structure.




                          This wall in the Sherzad Girl’s School shows
                          vertical cracks caused by the earthquake.
                          (Photo courtesy of USAID/Afghanistan)

The defective structures were designed and constructed when the mission did not have
adequate staff to provide engineering oversight. Furthermore, the mission was under extreme
pressure to construct numerous schools and clinics. As a result, the quality of the structures
suffered as monitoring was typically done by staff without an engineering or construction
background. The mission instituted new policies in November 2008 requiring participation of the
Office of Infrastructure Engineering and Energy in the design, construction, and oversight of all
structures. Specifically, all new structures must meet international building codes. Finally, the
mission is currently reviewing all structures it constructed under prior programs in zones of high
to moderate seismic activity to assess the safety of the structures.

The renovation of the roof for the clinic and construction of a boundary wall cost an estimated
$48,000, and construction of the new school cost approximately $268,000. These funds
otherwise could have been used for new structures under the Construction of Health and
Education Facilities Program.




                                                                                               15
While the mission has instituted new procedures for construction of new structures, we
nonetheless make the following recommendation.

   Recommendation 15. We recommend that USAID/Afghanistan, after identifying all the
   clinics built under the Schools and Clinics Construction and Refurbishment Program that
   may have design flaw that creates a fire hazard, notify the Ministry of Public Health of
   the potential danger and provide a remedy for the design flaw.




                                                                                              16
EVALUATION OF MANAGEMENT
COMMENTS
Based on an evaluation of the mission’s response to the draft report, the Office of Inspector
General determined that final actions have been taken on recommendations 5, 6, 7, 8, 11, and
12. Management decisions have been reached on recommendations 1, 2, 3, 4, 9, 10, 13, 14,
and 15. For those recommendations without final action, the mission intends to perform the
following actions.

For recommendation 1 the mission has directed International Organization for Migration (IOM)
to prepare a revised implementation plan indicating completion dates for all structures and the
recovery actions required to mitigate delays. This action is scheduled for completion by May 30,
2011.

For recommendation 2 the mission will extend the CHEF Cooperative Agreement from June 30,
2012 to June 30, 2013, through the end of the last project warranty period of IOM for the
completed structures. The action is scheduled for completion by May 30, 2011.

For recommendation 3 the mission has required IOM to redesign the women’s prayer room into
two rooms including a visiting room and living room which is similar to the layout at the men’s
dormitory. Furthermore the mission has halted construction on the mosque structures and the
mission will document the recovery of USAID funds disbursed to date for this structure. Action
is scheduled for completion by September 30, 2011.

For recommendation 4 the mission will issue a notice to all COTRs/AOTRs regarding USAID’s
policy on funding religious activities by May 30, 2011.

For recommendation 9 the mission will obtain the Annual Operations and Maintenance Budgets
for all CHEF projects from IOM, submit them to the relevant ministries, and verify that the
ministries have adequate funding to operate and maintain the facilities. The Mission will then
revise the 611(e) if necessary. This action is scheduled for completion by September 30, 2011.

For recommendation 10 the mission agrees to complete environmental assessments for the
CHEF projects that are currently under construction by September 30, 2011 in order to
determine if existing environmental mitigation plans are sufficient.

For recommendation 13 the mission is currently reviewing the marking plan and intends to issue
a final determination of the acceptability of the plan by May 30, 2011.

For recommendation 14 the mission has determined that based on a legal review of the
situation that the security guard costs are indeed allowable. According to the mission, the
Acquisition Officer’s (AO) decision dated October 21, 2010 was arguably a prudent response to
a new and misunderstood development in Afghan law. However, since the time of the AO’s
October 21 decision, the mission’s understanding of these matters has evolved. Decree 62,
issued by President Hamid Karzai on August 17, 2010, broadly banned Private Security
Contractors (PSCs) and stated that henceforth the Afghan Ministry of the Interior (MoI) would
provide security services. Since this decree was issued, USAID/Afghanistan has been working
to better understand Afghan law in this area and the full implications of the Decree. The
Regional Legal Advisor has concluded that IOMs Ghazni province arrangement was legal under
                                                                                             17
Afghan law because while Decree 62 prohibited the use of PSCs, the Afghan law on Firearms,
Ammunition and Explosives nonetheless continues to permit an organization to use individuals
who have been duly licensed by the MoI to carry firearms to provide their security. The mission
pointed out that the other arrangement in Faryab, while arguably unallowable, is within the AO’s
discretion to retroactively approve the agreement making the costs allowable. Since the
arrangement in Faryab was in fact legal, the AO has decided to approve this arrangement as
well. The AO will issue a revised ruling to IOM by May 30, 2011.

For recommendation 15 the mission agrees to officially notify the Ministry of Public Health about
the potential hazard of the stove chimneys and provide a recommendation for proper installation
by May 30, 2011




                                                                                              18
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General Afghanistan Country Office conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions in accordance with our audit objective. We
believe that the evidence obtained provides that reasonable basis. The objective of the audit
was to determine whether the activities funded under USAID/Afghanistan’s Construction of
Health and Education Facilities Program were achieving the program’s main goals to strengthen
the Islamic Republic of Afghanistan’s ability to provide health service to its citizens and to train
competent teachers by constructing hospitals, midwife training centers, and provincial teacher
training centers.

USAID/Afghanistan awarded a 4-year, $56.7 million cooperative agreement to International
Organization for Migration (IOM) to implement the Construction of Health and Education
Facilities Program (the program). As of September 30, 2010, USAID/Afghanistan had obligated
$57 million and disbursed $10 million for program activities.

The audit was performed in the Islamic Republic of Afghanistan (Afghanistan) from
September 14 through November 8, 2010, and covered the program’s activities implemented by
the contractor from January 2008 to November 2010. In Kabul, fieldwork was conducted at
USAID/Afghanistan, IOM's home office, four subcontractor home offices, a test laboratory used
by IOM for quality control assessments, and the office of the mission's construction quality
assurance contractor International Relief and Development Inc. (IRD). We also conducted
site visits to a renovated hospital in Kabul; midwife training centers under construction in
Badakhshan and Bamyan Provinces; provincial teacher training colleges under construction
in Faryab, Parwan, and Wardak Provinces; and a 100-bed hospital under construction in Paktya
Province.

As part of the audit, we assessed the significant internal controls used by USAID/Afghanistan to
monitor program activities. The assessment included controls related to whether the mission (1)
conducted and documented site visits to evaluate progress and monitor quality, (2) required and
approved an implementation plan, (3) reviewed progress reports submitted by the contractor, (4)
compared reported progress with planned progress and the mission’s own evaluations of progress,
and (5) reviewed and tested the quality control and quality assurance plans used by IOM and IRD.
We also reviewed the mission’s Federal Managers’ Financial Integrity Act report for fiscal year
2010 and prior audit reports for any issues related to the audit objective.

Methodology
To answer the audit objective, we interviewed officials from USAID/Afghanistan, IOM, and IRD,
as well as IOM's construction subcontractors. We also reviewed and analyzed relevant
documents and data at the mission, IOM, and subcontractors. Documents included the quality
control plan, the agreement between USAID/Afghanistan and IOM, and financial data.
Furthermore, we reviewed IOM site visits and other monitoring reports, progress reports, and
financial records.


                                                                                                 19
                                                                                        Appendix I


To determine the reliability of computer-processed data received from the mission in support of
its obligated and disbursed amounts, we reviewed prior audits of the mission’s financial
statements and internal controls. Furthermore, we verified the results of quality control tests by
selecting a judgmental sample of construction sites and reviewing supporting documentation at
the sites and IOM’s country office. Since the testing was based on a judgmental, not a
statistical, sample, the results and conclusions related to this analysis were limited to the items
tested and could not be projected to the entire audit universe.




                                                                                                20
                                                                                       Appendix II



MANAGEMENT COMMENTS
(~"OiUSAID AFGHANISTAN
"'1'",1'i:"I~-:,i~ FROM THE AMERICAN PEOPLE
   ~"lD"Y




                                                                          March 9, 2011


MEMORANDUM

TO:                Tim Cox, OIG/Afghanistan Director

FROM:              USAID/Afghanistan Mission Director, Earl W. Gast /s/

SUBJECT: Audit of USAID/Afghanistan’s Construction of Health and Education Facilities
(CHEF) Program (Audit Report Number F-306-11-XXX-P)

REFERENCE:                  T. Cox/E. Gast memo dated January 15, 2011


Thank you for providing the Mission the opportunity to review the subject draft audit report and
respond to the findings and recommendations therein. We appreciate the professionalism and
objectivity exhibited by the audit team in conducting the audit and preparing thoughtful
recommendations. This memo provides the Mission’s response to the recommendations in the
audit report.

MISSION RESPONSE TO AUDIT RECOMMENDATIONS:

Recommendation 1. We recommend that, after the current construction season,
USAID/Afghanistan obtain a revised implementation plan from the International Organization
for Migration identifying revised completion dates for all structures, recovery actions to
increase the speed of construction, potential barriers to timely completion of construction, and
actions that could be taken to mitigate delays.

The Mission agrees with the recommendation and has directed International Organization for
Migration (IOM) to prepare a revised implementation plan indicating completion dates for all
structures and the recovery actions required to mitigate delays. IOM’s implementation plan is
revised and approved by the Mission annually per Section A.5, 1 of the CHEF Cooperative
Agreement. The most recent implementation plan revision has been received by the Mission
and is currently in review.

This action is scheduled for completion by May 30, 2011.


                                                                                                   21
Additionally, in October 2010, the Mission directed the IOM to develop a program matrix that
measures construction progress of all projects against agreement delivery dates, analyzes
delays, and proposes recovery actions for timely completion of the structures. The program
matrix is updated every two weeks and is the basis for bi-weekly CHEF Program progress
meetings between USAID and IOM.
Management Decision:

The Mission believes that appropriate actions are being taken to address this recommendation
and therefore requests OIG’s concurrence of the actions.

Recommendation 2. We recommend that USAID/Afghanistan extend its agreement with the
International Organization for Migration to ensure that the warranty period for all completed
structures falls within the agreement period.

The Mission agrees with the recommendation. The CHEF Cooperative Agreement is being
extended from June 30, 2012 to June 30, 2013, through the end of the last project warranty
period of IOM for the completed structures. Certain manufacturer warranties for equipment
included in the structures may have a duration longer than this extension.

This action is scheduled for completion by May 30, 2011.

Management Decision:

The Mission believes that appropriate actions are being taken to address this recommendation
and therefore requests OIG’s concurrence of the actions.


Recommendation 3. We recommend that USAID/Afghanistan review the eligibility of the cost of
the prayer buildings and prayer rooms included in the provincial teacher training centers and
recover any costs found to be unallowable.

The Mission agrees with the recommendation to review the eligibility of the cost of the subject
buildings and rooms included in the Provincial Teacher Training Colleges (PTTCs) and to
document the recovery of any unallowable costs.

Four PTTCs are being constructed under the CHEF Program. Each PTTC includes one room
within the women’s dormitory building that was originally designated as a “prayer room”. The
Mission proposes to convert this room into two rooms, a visiting room and living room which is
similar to the layout at the men’s dormitory. Based upon direction from Regional Legal Advisor,
this conversion satisfies the RLA’s interpretation of regulations governing allowable costs.

The PTTC plans also included a free standing building that was originally designated as a
“mosque”. Although the mission anticipates this building will be used for multiple purposes,
both religious and non-religious, the original intent as a mosque means that the construction costs
are unallowable. Consequently, the construction was halted on the mosque structures and the



                                                                                                22
Mission will document the recovery of USAID funds dispersed to date for this structure (see
Attachment 1, USAID Letter to IOM re. Unallowable Assistance to Support Religious
Activities).

The action is scheduled for completion by September 30, 2011.

Management Decision:

The Mission believes that appropriate actions are being taken to address this recommendation
and therefore requests OIG’s concurrence of the actions.

Recommendation 4.          We recommend that USAID/Afghanistan include in technical
representatives’ designation letters a reminder of USAID’s policy on funding religious activities.

The Mission agrees that COTRs/AOTRs need to be reminded of USAID’s policy on funding
religious activities. The Mission will issue a notice to all COTRs/AOTRs regarding USAID’s
policy on funding religious activities.

The action is scheduled for completion by May 30, 2011.

Management Decision:

The Mission believes that appropriate actions are being taken to address this recommendation
and therefore requests OIG’s concurrence of the actions.

Recommendation 5. We recommend that USAID/Afghanistan develop a process for releasing
completed designs.

The Mission agrees. In consultation with Regional Legal Advisor, the Mission has developed
Transfer Agreements (see Attachment 2) for the release of completed CHEF designs to the
relevant ministries and other; donors. The Transfer Agreements release USAID of all liability for
construction of CHEF designs by others.

This action was completed on March 09, 2011.

Management Decision:

The Mission believes that appropriate actions have been taken to address this recommendation
and therefore requests OIG’s concurrence of the actions.

Recommendation 6. We recommend that USAID/Afghanistan obtain evidence that the
International Organization for Migration has standardized its quality control procedures at all
construction sites.




                                                                                               23
The Mission agrees with the recommendation. IOM has demonstrated the use of standardized
quality control procedures through continuous revisions (see Attachment 3, CHEF Quality
Control Revision Table) that have been made to their Quality Control Manual (QCM) which is in
its 7th revision (see Attachment 4, CHEF Quality Control Manual, 7th Revision) IOM’s Quality
Control and Safety Manager makes regular visits to all construction sites to ensure compliance
with the QCM revisions. In addition, IOM has recently completed a 2 day Quality
Assurance/Quality Control (QA/QC) Workshop held in Kabul on 6 and 7 February 2011 to
further improve QA/QC procedures at all construction sites. The workshop was attended by 51
attendees from IRD’s quality assurance team, IOM’s quality control team, ministry officials,
IOM’s subcontractors, and USAID.

This action was completed on November 22, 2010 when IOM submitted the QCM 7th Revision
and this action is closed.

Management Decision:

The Mission believes that appropriate actions have been taken to address this recommendation
and therefore requests OIG’s concurrence of the actions.

Recommendation 7. We recommend that USAID/Afghanistan obtain evidence that the
International Organization for Migration has updated its quality control manual to include all
tests performed and acceptance criteria used for quality control.

The Mission agrees with the recommendation. As stated above, IOM has continuously revised
their QCM to include all additional testing that is performed along with the acceptance criteria.

This action was completed on November 22, 2010 when IOM submitted the QCM 7th Revision
and this action is closed.

Management Decision:

The Mission believes that appropriate actions have been taken to address this recommendation
and therefore requests OIG’s concurrence of the actions.

Recommendation 8. We recommend that USAID/Afghanistan develop and implement a process
whereby the agreement officer’s technical representatives verify and review quality control tests.

The Mission agrees with the recommendation that the Agreement Officer’s Technical
Representatives (AOTRs) verify and review quality control tests.

USAID/Afghanistan’s Mission Order 302.03 dated July 7, 2010 mandates that USAID
construction projects for schools and hospitals are continuously monitored by an independent
Quality Assurance/Quality Control (QA/QC) firm which reports directly to the AOTR. The
QA/QC services are provided by International Relief and Development (IRD) under the
Mission’s Human Resources and Logistics Support II Program. IRD provides the AOTR with
weekly QA/QC reports which includes the work progress, all quality control testing and test



                                                                                                 24
results, and all deficiencies. IRD also informs the AOTR immediately when specific
deficiencies have been identified at the construction sites. The AOTR is responsible for review
of the QA/QC Reports and to follow up with IOM to resolve deficiencies.

This action was completed in late November 2010 when IRD incorporated all quality control
testing, test results, and all deficiencies into the weekly QA/QC reports (see Attachment 5, IRD
Weekly QA/QC Reports for four example CHEF projects)

Management Decision:

The Mission believes that appropriate actions have been taken to address this recommendation
and therefore requests OIG’s concurrence of the actions.

Recommendation 9. We recommend that USAID/Afghanistan, after preparing an analysis of the
Government of Afghanistan’s ability to fund maintenance for the structures turned over under
the program, (1) determine the need for a separate operation and maintenance program and (2)
revise as appropriate the 611 (e) certification previously prepared for the Construction of Health
and Education Facilities Program.

The Mission agrees with this recommendation.

The CHEF projects require IOM to provide the relevant ministries with an Operations and
Maintenance (O&M) Plan for each CHEF project prior to completing and handing over the
facility. The O&M Plan for each CHEF project includes:

1)       O&M Manuals for equipment installed.
2)       O&M training of ministry representatives for equipment installed.
3)       An Annual O&M Budget, detailing the cost for the operation and maintenance of the
facility.

The Mission will obtain the Annual O&M Budgets for all CHEF projects from IOM, submit
them to the relevant ministries, and verify that the ministries have adequate funding to operate
and maintain the facilities. The Mission will then revise the 611(e) if necessary.

This action is scheduled for completion by September 30, 2011.

Management Decision:

The Mission believes that appropriate actions are being taken to address this recommendation
and therefore requests OIG’s concurrence of the actions.

Recommendation 10. We recommend that USAID/Afghanistan complete the environmental
assessments required by Title 22 of the Code of Federal Regulations, Part 216, “Environmental
Procedures”.

The Mission agrees to complete environmental assessments for the CHEF projects that are



                                                                                               25
currently under construction in order to determine if existing environmental mitigation plans are
sufficient. If additional environmental mitigation plans are required, the Mission agrees to amend
Section A-13, 2.2 of the CHEF Cooperative Agreement to include the additional environmental
actions.

This action is scheduled for completion by September 30, 2011.

The Mission will also monitor and evaluate the implementation of the mitigation measures and at
the time of the Substantial Completion Inspection for each facility, the AOTR will confirm final
completion of the environmental actions.

Management Decision:

The Mission believes that appropriate actions are being taken to address this recommendation
and therefore requests OIG’s concurrence of the actions.

Recommendation 11. We recommend that USAID/Afghanistan provide adequate supervision to
reasonably ensure compliance with USAID’s environmental procedures.

The Mission agrees with the recommendation to provide adequate supervision to reasonably
ensure compliance with USAID’s environmental procedures. On November 1, 2010, the
Mission added a second Mission Environmental Officer position to assist with supervision of
USAID’s environmental procedures.

This action has been completed and closed.

Management Decision:

The Mission believes that appropriate actions have been taken to address this recommendation
and therefore requests OIG’s concurrence of the actions.

Recommendation 12. We recommend that the mission direct the International Organization for
Migration to submit a formal marking plan as required by the agreement.

The Mission agrees. IOM submitted a formal marking plan (see Attachment 6, CHEF Marking
Plan) to the Mission for approval on December 12, 2010.

This action has been completed and this action is closed

Management Decision:

The Mission believes that appropriate actions have been taken to address this recommendation
and therefore requests OIG’s concurrence of the actions.




                                                                                               26
Recommendation 13. We recommend that, on receipt of the International Organization for
Migration’s (marking) plan, the mission determine the adequacy of the plan.


The Mission agrees. IOM’s marking plan is under review by the Mission to determine the
adequacy of the plan.

This action is scheduled for completion by May 30, 2011.

Management Decision:

The Mission believes that appropriate actions are being taken to address this recommendation
and therefore requests OIG’s concurrence of the actions.


Recommendation 14. We recommend that USAID/Afghanistan identify and recover the
unallowable costs billed to the mission for the use of off-duty Afghan National Police officers.

The Mission has consulted with the USAID Regional Legal Advisor (RLA) and for the reasons
set forth below, the RLA in conjunction with the Agreement Officer (AO) has concluded that the
costs in question are allowable.

There are two MOUs involved in this matter. IOM had a security MOU with the Governor of
Ghazni Province permitting it to use “off-duty police officers” to protect its operations there.
These “off-duty police officers” are in reality Afghan nationals trained and licensed to carry
firearms by the Afghan National Police (ANP). IOM properly submitted this MOU in advance
to the USAID AO for approval, which was granted. The second MOU was between IOM and
the Governor of Faryab Province and similarly used “off-duty police officers” to guard IOM
operations there. This MOU was not submitted in advance of hiring the off-duty police officers
and costs were incurred.

As OIG/Afghanistan correctly points out, IOM subsequently to making the arrangements for the
off-duty police officers submitted the Faryab MOU to the AO for approval. According to the
Audit Findings, “The agreement officer denied approval of the memorandum [for Faryab
Province] and revoked approval for a prior memorandum of understanding IOM had in Ghazni
province because the agreements did not comply with Afghan laws which had changed since the
original memorandum of understanding was approved.”

The AO’s decision dated October 21, 2010 was arguably a prudent response to a new and
misunderstood development in Afghan law. However, since the time of the AOs October 21
decision, the Mission’s understanding of these matters has evolved. Decree 62, issued by
President Hamid Karzai on August 17, 2010, broadly banned Private Security Contractors
(PSCs) and stated that henceforth the Afghan Ministry of the Interior (MoI) would provide
security services. Since this decree was issued, USAID/Afghanistan has been working to better
understand Afghan law in this area and the full implications of the Decree. The RLA has
concluded that IOMs Ghazni province arrangement was legal under Afghan law because while



                                                                                                   27
Decree 62 prohibited the use of PSCs, the Afghan law on Firearms, Ammunition and Explosives
nonetheless continues to permit an organization to use individuals who have been duly licensed
by the MoI to carry firearms to provide their security.

According to this analysis, there was no basis to disapprove the Ghazni MOU since it was a legal
arrangement that had been properly submitted in advance to the AO. Costs related to the Faryab
MOU could arguably be disallowed because the MOU was not submitted to the AO in a timely
fashion. However, it is within the AOs discretion to retroactively approve the arrangement. In
this case, since the requirement to submit any MOU for prior approval was not an express part of
the agreement with IOM, and since the arrangement was in fact legal, the AO has decided to
approve this arrangement as well.

The AO will issue a revised ruling to IOM by May 30, 2011.

Management Decision:

The Mission believes that appropriate actions are being taken to address this recommendation
and therefore requests OIG’s concurrence of the actions.

Recommendation 15. We recommend that USAID/Afghanistan, after identifying all the clinics
built under the Schools and Clinics Construction and Refurbishment Program that may have
design flaw that creates a fire hazard, notify the Ministry of Public Health of the potential
danger and provide a remedy for the design flaw.

The Schools and Clinics Construction and Refurbishment Program (SACCARP) was an
unrelated Mission program completed in 2006. SACCARP included construction and repair of
schools and health clinics throughout Afghanistan. The scope of work for the health clinics
accommodated installation of electric heaters by a third party after completion of construction.
The Ministry of Public Health requested wood stoves be substituted for electric heaters and
because most of the clinics were already handed over, the ministry took responsibility for
installing the stoves. Unfortunately, at least one stove chimney was installed incorrectly. The
Mission agrees to officially notify the Ministry of Public Health about the potential hazard of the
stove chimneys and provide a recommendation for proper installation.

The target date for completion of this action is May 30, 2011.

Management Decision:

The Mission believes that appropriate actions are being taken to address this recommendation
and therefore requests OIG’s concurrence of the actions.


Attachments
1.    USAID Letter to IOM re. Unallowable Assistance to Support Religious Activities
2.    Transfer Agreements for Release of Completed CHEF Program Designs
3.    CHEF Quality Control Manual Revision Table



                                                                                                 28
4.   CHEF Quality Control Manual, Revision 7 dated November 22
5.   IRD Weekly QA/QC Reports for four example of CHEF projects
6.   CHEF Marking Plan




                                                                  29
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
